FOR IMMEDIATE RELEASE                                                October 17, 2013
Media Contact: 202-565-3908

         FOREIGN FINANCIAL CONSULTANT SENTENCED IN SCHEME
      TO DEFRAUD THE EXPORT-IMPORT BANK OF THE UNITED STATES

Washington, DC – The Office of Inspector General (OIG) for the Export-Import Bank
of the United States (Ex-Im Bank) announced today that on October 17, 2013,
Manuel Ernesto Ortiz-Barraza, an independent financial consultant from Mexico,
was sentenced to serve 36 months in prison for his role in a scheme to defraud Ex-
Im Bank of nearly $7.2 million.
Judge Kathleen Cardone, U.S. District Court in El Paso, TX, also sentenced Ortiz-
Barraza to serve 36 months supervised release and pay $7,172,865 in restitution
and $8,481,245 in criminal forfeiture.
Ortiz-Barraza was charged in an indictment unsealed on Oct. 19, 2011, with one
count of conspiracy to commit wire and bank fraud, three counts of wire fraud, and
one count of bank fraud for his alleged role in a scheme with several others to
defraud Ex-Im Bank. Based on a provisional arrest warrant, Mexican authorities
arrested Ortiz-Barraza in Mexico on February 13, 2012, and he was extradited to the
United States on January 25, 2013. Ortiz-Barraza pleaded guilty on June 20, 2013 to
wire fraud conspiracy and bank fraud.
According to the U.S. indictment and court documents, Ortiz-Barraza and his co-
conspirators allegedly conspired to obtain Ex-Im Bank guaranteed loans through
banks by creating false loan applications, false financial statements, and other
documents purportedly for the purchase and export of U.S. goods into Mexico.
Ortiz-Barraza and his co-conspirators allegedly falsified shipping records to support
their claims of doing legitimate business and did not ship the goods that were
guaranteed by Ex-Im Bank. After the loan proceeds were received, Ortiz-Barraza
and his co-conspirators allegedly split the loan proceeds among themselves. As a
result of the alleged fraud, the conspirators’ loans defaulted, causing Ex-Im Bank to
pay claims to lending banks on a loss of over $2.5 million.
The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
Office, Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank
OIG; Homeland Security Investigations in El Paso, TX; Internal Revenue Service-
Criminal Investigation in Washington, DC; and the U.S. Postal Inspection Service in
Washington, DC investigated the case. Significant assistance was provided to this
fugitive investigation by the Department of Justice, Office of International Affairs;
INTERPOL; the United States Marshals Service; and the government of Mexico.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or


                  811 Vermont Avenue, NW Washington, D.C. 20571
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations. Additional
information about the OIG can be found at www.exim.gov/oig. Complaints and
reports of waste, fraud, and abuse related to Ex-Im Bank programs and operations
can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at
IGhotline@exim.gov.
                                      ###




                 811 Vermont Avenue, N.W. Washington, D.C. 20571
